                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A08110054
                                                                                    11        Page 1 of 1



              NSF OIG received an allegation of plagiarism within an NSF proposal. Our inquiry confirmed
          that the subject1had copied a small amount of text without adequate citation. However, we were
          unable to establish a pattern of plagiarism within the proposal. Based on the small amount of copied
          text, we sent a questionable research practices letter to the subject recommending he-improvehis
          citation practice.


11                   Accordingly, this case is closed and no further action will be taken..




 NSF OIG Form 2 (1 1/02)
